Washington, D.C. 20530

April 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Leefatinie Tirosh Cole v. United States of America,
S.Ct. No. 20-7427
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 1, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on April 29, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 31, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7427
COLE, LEEFATINIE TIROSH
USA

COURTNEY O'DONNELL
FEDERAL DEFENDER PROGRAM, INC.
101 MARIETTA STREET, N,W,
STE. 1500
ATLANTA, GA 30303
404-688-7530

